OFFICE OF THE ATTORNEY GENERAL
KWAME RAOUL

STATE OF ILLINOIS

ATTORNEY GENERAL

March 8, 2021
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Next Energy, LLC v. Ill. Dep’t of Nat. Res., No. 20-885

Dear Mr. Harris:
On February 19, 2021, this Court directed Respondent Illinois Department of
Natural Resources to respond to the petition for a writ of certiorari in the abovecaptioned case by March 22, 2021. Pursuant to Supreme Court Rule 30.4,
respondent respectfully requests a 30-day extension of time to April 21, 2021, to file
its response. Counsel for petitioner has authorized us to state that this request is
unopposed.
The extension requested by respondent is necessary due to work
responsibilities held by Assistant Attorney General Jonathan J. Sheffield, who will
draft respondent’s brief in opposition under my supervision. Specifically, Mr.
Sheffield is responsible for filing an opening brief in People v. Evelyn Hoing, No. 320-0062, which is due to the Illinois Appellate Court on March 23, 2021. In
addition, he is preparing for oral arguments in the Seventh Circuit Court of Appeals
in Reyes v. Fishel, Nos. 19-1082 & 19-1084, and Stennis v. Berry, No. 19-2616, on
March 30 and April 14, 2021, respectively.
Moreover, my work responsibilities and personal schedule also merit an
extension. As the Solicitor General of Illinois, I devote substantial time to
performing supervisory and administrative duties, including editing briefs in
numerous appeals and helping attorneys prepare for oral argument. Additionally, I
will be preparing for oral argument in the Seventh Circuit Court of Appeals on April
1, 2021 in Ross v. Gossett, No. 20-1992.

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

This is respondent’s first request for an extension of time. It is not made for
purposes of delay, but solely to ensure that respondent’s interests are adequately
protected. Thank you in advance for your attention to this matter.
Sincerely,
/s/ Jane Elinor Notz
Jane Elinor Notz
Solicitor General
100 West Randolph Street
12th Floor
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
cc: Rodney V. Taylor, Counsel for Petitioner

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

